                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

  Case Number: A09060051                                                        Page 1 of 1


          We received an allegation that a proposal submitted to NSF contained plagiarized
          text. We concluded there was substance to the allegation and referred it to the PI's
          home institution. It substantiated the allegation and prohibited the PI from
          submitting proposals until she received training. After our investigation, we
          Goncluded the PI's actions were plagiarism that amounted to research misconduct.
          We referred our report of investigation to NSF, which agreed the PI committed
          research misconduct and took several actions. NSF's finding, OIG's report, and this
          document con'stitute the closeout for this case. This case is closed with no further
          action taken.




NSF OIG Form 2 (11102)
.   ­
                                           NATIONAL SCIENCE FOUNDATION
                                                 4201 WILSON BOULEVARD
                                                ARLINGTON, VIRGINIA 22230



                                                       JUL 0 7 2011

            OFFICE OF THE 

              DIRECTOR 





        CERTIFIED MAIL --RETURN RECEIPT REQUESTED




               Re:           Notice ofResearch Misconduct Determina~i~m


        Dear Dr.
                In 2008-2009, you submitted three proposals to the-National Science Foundation ("NSF")
        entitled,  pv




                                              , ~," aIld ,,:­
                    ,.   ,



                                     .       .      j ' " As documented in the attached
        Investigative Report prepared by NSF's Office ofInspector General ("OIG"), these proposals
        contained plagiarized material.                            .

        Research Misconduct and Sanctions
                Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
        or plagiarism in proposing or performing research funded by NSF ..." 45 CFR § 689.1 (a). NSF
        defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
        without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
        requires that:

               (1) There be a significant departure from accepted practices 	of the relevant research .
                   community; and
               (2) The research misconduct be committed intentionally,or knowingly, or recklessly; and
               (3) The allegation be proven by a preponderance of evidence.

        45 CFR § 689.2(c).
                                                                                                           ..   ­
                                                                                                 Page 2
          Your proposals contained verbatim and paraphrased text copied from several source
  documents. By submitting proposals to NSF that copied the ideas or words of another without
  adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
  else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
  conclude that your actions meet the defIrutIon of "research mIsconduct" set forth In NSF's
  regulations.

         Pursuant to NSF regulations, the Foundation must also determine whether to make a
 finding ofmisconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
 reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was committed recklessly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

            NSF's regulations establish three categories of actions (Group I, IT, and III) that can be
   taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions inciude
   issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
, 	NSF; requiring tha;t an institution or individual obtain special prior approval of particular
   activities from NSF; and requiring that an institutional representative certify as to the accuracy of
   reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
   Group IT actions include award suspension or restrictions on designated activities or
   expenditures; requiring special reviews of requests for funding; and requiring correction to the
   research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
   awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
   or suspension fro~ participation in NSF programs. 45 CFR § 689.3(a)(3).
                     !

         In determi.tllng the severity of the sanction to impose for research misconduct, I have 

 considered the seriousness of the misconduct, and our determination that it was committed 

 recklessly. I have'also considered the fact that your misconduct was part of a pattern of 

 plagiarism, and had no substantive impact on the research record, as well as other relevant 

 circumstances. 45 CFR § 689 .3(b). 


                     .
        After assessing the relevant facts and circumstances of this case,
 following actions against you: 	
                                                                      .
                                                                           I am taking the


         (1) Until July 1, 2013, you must provide certifications to the OIG that any proposal or
             report you submit to NSF as a PI ~r co-Pldoes not contain plagiarized, falsified, or
             fabricated material;

         (2) Until July 1,2013, you must obtain, and provide to the OIG, assurances from a
             responsible official of your, employer that any proposal or report you submit to NSF as
             a PI or co-PI does not contain plagiarized, falsified, or fabricated zp:aterial; and
                                                                                              Page 3
        (3) Prior to submitting additional proposals to NSF, but no later than July 1, 2012, you
            must take a course on responsible research practices with emphasis on proper citation
            and attribution practices. You must provide certification to the OIG of your
            attendance at such a course.

        The certifications and assurances should be submitted in writing to NSF's OIG, Associate
 fuspector General for fuvestigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.

 Procedures· Governing Appeals
          Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
  of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1O(a). Any appeal
  should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
  Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
. decision will become final.

        For your information, we are attaching a copy of the applicable regulations. If you have 

 any questions about the foregoing, please c a i l _ Assistant General Counsel, at (703) 

 292-8060. 




                                                      Sincerely,




                                                      Wanda Ward
                                                      Senior Advisor to the DireGtor



Enclosures:
fuvestigative Report
45 C.F.R. Part 689
CONFIDENTIAL                                 CONFIDENTIAL




      National Scien<;e Foundation 

                .      ...   ~   .

       Office of Inspector General 





                       Confidential 

                Report -of Investigation 

               Case Number A-090600S1 

                     1- August 2011 





                                       NSF OlG Form 22b (11/06)
CONFIDENTIAL                                                                            CONFIDENTIAL
                i~




                                          Executive Summary

Allegation                Plagiarism.

OIG Inquiry     ;~        An NSF proposal contained approximately 106 lines of copied text
                          without proper citation from 4 source documents.           The Subject's
                          explanation did not dispel the allegation. We identified an additional 74
                          lines of copied text without proper citation from two source documents in
                          two other NSF proposals. We referred 'the matter to the Subject's home
                          institution for investigation.

University
Investigation             The University concluded that the Subject committed research misconduct
                          when she recklessly plagiarized. It took no additional actions.

OIG Assessment            We concurred with the University that the Subject committed research
                          misconduct, concluding:

                          The Act: The Subject plagiarized approximately 180 lines of text from 6
                          source documents into three NSF proposals.

                          Intent: The Subject acted recklessly.

                          Standard of Proof: A preponderance of the evidence supported our finding
                          that the Subject recklessly plagiarized the text.

                          Significant Departure: The Subject's copying of text represents a
                          significant departure from accepted practices in the research community.

                          Pattern: The subject's actions of copying text into 3 proposals exhibit a
                          pattern of plagiarism.

OIG
Recommendations           Send a letter of reprimand to the Subject informing her that NSF has made
                          a finding of research misconduct.

                          Require the Subject to take a course on responsible research practices with
                          emphasis on proper citation and attribution practices.

                          For the next 2 years, require the Subject to provide certification with every
                          submission to NSF that the submitted work is either entirely her own
                          writing or is properly cited.



                     I
                     I(
                                                    2
CONFIDENTIAL                                                                                      CONFIDENTIAL



                           For the' next 2 years, require the Subject to ensure her employer submits
                           assurances that the Subject's submitted work is either entirely the
                           Subject's own writing or is properly cited.

                                                 OIG's Inquiry
                                                              .
We reviewed an allegation that an NSF proposal (Proposal 1) (Tab 1), 1 which lists a PI (S'ubject)
and two Co-PIs, contained plagiarized material. Our review identified approximately 106 lines
of text copied from 4 source documents (Tab 2).2 The proposal's authors failed to provide
references to three of the source documents, and although one source document was referenced,
the reference was not in conjunction with the copied text. None of the copied text was offset or
distinguished in such a way as to enable a reader to differentiate the authors' own text and
citations from the copied text and citations.
                                                    ,.
We wrote to the PI and Co-PIs regarding the copied text (Tab 3), and the PI responded (Tab 4):

           I erroneoUsly was of the" opinion that the proposal was to be 25 not 15 pages
           long ... [and] in trying to cut down the 'write-up from 25 pages to the required 15
           pages I inadvertently cut out 'statements collated from various sources as wen as
           sources whose statements I had referenced. 3

The PI said she had not submitted any other proposals containing material copied or not properly
distinguished. 4 With regard to the contributions of her Co-PIs, the PI stated:

            • to reiterate that I developed and wrote the proposal ... alone, without any
         I wish
         written contribution from [the Co-PIs] .. .'.1 am therefore humbly requesting that they
         be dropped from the above investigation. 5, 6 .
                       .                                            , .
In our arialysis <?fthe Subject's response, we looked at the Subject's past submission of proposals
to NSF to see if there was
                         ,  any. reason the Subject should ,believe the proposal limit was 25, rather
than 15, pages. We found four prior' proposals involving the Subject submitted to NSF (the
Subject was Co-PIon two and PIon two): Proposal 2/ Proposal 3,8 Proposal 4,9 and Proposal
5.10 None of these proposals approached 25 pages in length (the longest was 16 pages), so there
was no obvious reason for the 'Subject to think the page limit was as she described it.
Consequ'ently, we concluded the Subject"s explanation was inadequate to obviate the allegation.

     1 [redacted] It was submitted by [redacted] (the University) and lists [redacted] (the Subject) aS,the PI, with
[redacted] as the Co-PIs. The proposal was declined.
    2 The four source documents are three publications (Source Documents A, C, and D) and a draft white paper

(Source Document B).
    3 Tab 4, p. 1.
    4 Tab 4, p. 2.
    5   Tab 4, p. 3.                                              ',.
    6 The two Co-PIs both confirmed the PI's statement that they did not provide any written contribution to the
proposaL Accordingly, the Co-PIs were excluded from our Inquiry, and we considered the PI to be the Subject.
    7 [redacted] It was submitted with the Subject as a Co-PI. The proposal was declined.
    8 [redacted] It was submitted with the Subject as a Co-PI. The proposal was awarded [redacted].
    9 [redacted] It was submitted with the Subject as PI. The proposal was declined.
    10 [redacted] It was submitted with the Subject as PI. The proposal was awarded [redacted].



                                                         3

CONFIDENTIAL                                                                                   CONFIDENTL,\L


We also examined these four proposals for evidenct{ of a pattern of plagiarism. Both Proposal 4
(Tab 5) and Proposal 5 (Tab 7) had 37 lines of uncited/improperly cited text (Tabs 6 and 8,
respectively).

As a result of our Inquiry, we determined there was sufficient substance to proceed to an
investigation, and we referred the investigation (Tab 9) to the Subject's institution (the
University).

                                         University Investigation

The University assigned a· Speci~l Committee to investigate the allegation, headed by a Vice
President for University Research/ 1 who served as the Researchlntegrity Officer (RIO)Y The
Committee provided us with a cover letter, a report, and report attachments (Tabs lO-12,
respectively). The Committee met on three separate occasions and reviewed documents from
NSF-OIG, documents received from the Subject, including the 25-page draft of Proposal 1 and
institutional re~ords, and proposals written by the Subject. The Subject's computer was secured
during the inv:estigation. The Committee deemed interviews with the Co-PIs of Proposal 1
unnecessary as'the Subject requested they not be considered in the investigation. The Committee
also said it d!d not have access to any plagiarism software and was not able to "identify
plagiarized materials beyond specific source documents which can then be manually
compared. ,,13              '


The Committee reviewed the 25-page draft of Proposall and other evidence, and established
that "[a] preponderance of the evidence ... indicated that plagiarism occurred in the proposal
submitted by [the Subject].,,14 The ~ommittee reviewed the other two proposals ideiitified as
containing potentially plagiarized material, Proposals 4 and 5, and agreed that "a pattern of
improper documentation of reference materials,,15 existed. The Committee "agrees that
unattributed work of others in proposals is unacceptable and is a departure from accepted
practices in the research community.,,16 Additionally, "the Committee concluded [the Subject]
committed the ,acts of plagiarism due to her inexperience in scientific writing and grantsmanship.
This infraction'is considered reckless.,,17    "      ,

The Deciding Official did not independently reach a conclusion as to whether the Subject
committed research misconduct. Based on the evidence presented by the Committee's report,
the Deciding Official "imposed [a] sanction that [the Subject] will not be allowed to submit any



    II [redacted] was the Vice President of Institutional Research, Planning and Sponsored Programs,
    12 During the investigation, the RIO took administrative leave for several months. The Associate Provost for
Academic Affairs [redacted] became the new RIO with leadership over the Committee and the Provost and Vice
President for Academic Affairs [redacted] became the Authorized Organizational Representative (Deciding
Official)..
    J3 Tab n, p. 3.
    14 Id.

    15 Tab 11, p. 2.
    16 Tab 11, p. 3.
    17 Id.



                                                       4
CONFIDENTIAL                                                                       CONFIDENTIAL


grant proposal (state or federal) until there is assurance that she has undergone adequate training
in the areas of scientific writing and grantsmanship.,,18

                                        OIG's Investigation

The Committee's report indicated the Subject provided documentation to the Committee, but it
did not include this material in its report to us. Moreover, there was no indication the Subject
had been interviewed by the Committee and no notes or memoranda were provided to us.
Although the Committee concluded Proposal 1 contained plagiarism and the Subject's actions
were reckless and' a departure from accepted practices, it did not reach a conclusion about
whether the plagiarism was a significant departure from accepted practices in the research
community.

We wrote to the Deciding Official (Tab 13) requesting copies and any interview memoranda or
transcripts, copies of any documents the Subject provided to the Committee, as well as a
determination regarding the Subject's actions being a significant departure. We also identified a
potential conflict of interests with the Deciding Official, as he was listed as a Special Committee
member 19 but Was required to give a recommendation independent of the Committee. If a
conflict of interests existed, it would be contrary to the University's policy that requires
separation of investigation from adjudication. We asked the Deciding Official how the apparent
conflict was mahaged.                                                                   .'

The Deciding Official responded to our request (Tab 14) and informed us that the Special
Committee did not interview the Subject This decision was made because the Subject claimed
that no written contributions were provided by her' Co-PIs and the Committee determined that the
Subject's assertion that references were deleted in editing her draft of Proposal 1 from 25 to 15
pages "was incorrect.,,2o The Deciding Official also wrote:                 '

          The Committee determined that the actions of [the Subject] were a significant
          departure from accepted practices in the research -community. In my role 'as the
          Provost and Vice-President for Academic Affairs at [the University], I believe
          these actions were also a'significant departure as well. 21

The Deciding Official also Wrote that he "did"not serve on the' committee and iIi no way
influenced the decision(s) of the committee.,,22 The Deciding Official's name was included on
the list of Special ,Committee members simply to show the administrative changes that took place
at the University during the investigation. .
                  .                      ' , r             ..
We also reviewed the additional documents the University sent at our request. The Subject
initially claimed that in her haste to condense a 25-page
                                                       <4.
                                                           draft of p.roposal 1 down
                                                           r                     .
                                                                                     to the  S




   1& Tab 11, p. 4,
   19 Tab 12, Attachment 4.
   20 Tab 14, p. L
   21Id.
   22   Tab 14, p. 2.


                                                 5
                                                                                                               \



 CONFIDENTL,\L                                                                             CONFIDENTL'\L



 maximum 15 pages, she omitted citations and references' that otherwise would have been
 included. The University's Committee reviewed the draft proposal and found that it could not
 reach a conclusion about the Subject's claim based on the draft proposal alone. We reviewed the
 25-page draft as well and found that the draft referenced all four of the source documents near
 the copied text. However, the Subject did not adequately distinguish the source text from her
 own original text by offsetting the text or using quotation marks.

                                           OIG's Assessment

 NSF's Research Misconduct Regulation states that a finding of misconduct requires: (1) there be
 a significant 4eparture from accepted practices of the relevant research community; (2) the
 research misconduct be committed intentionally, or knowingly, or recklessly; and (3) the
 allegation be proven by a preponderance of the evidence. 23




  The Subject c?pied approximately 106 lines .of text from 4 different source documents into 

  Proposal 1. The text was primarily found in the background and methodology sections of the 

  Subject's proposal. We subsequently checked four of the Subject's previous NSF proposals and 

  identified 74 additional lines of copied text from two source 'documents in Proposals 4 and 5 . 

. The NSF Grant Proposal Guide is clear with regard to citation practices: "NSF expects strict 

  adherence to the rules of proper scholarship and attribution. The responsibility for proper 

  attribution and citation rests with authors of a proposal; all parts of the proposal should be 

  prepared with equal care for this concem.,,25 Consequently, by failing to appropriately 

  distinguish verbatim copied text from her own original text, the Subject prt;!sented the work of 

              ovm
  others as her     and failedto give appropriate credit to the actual authors.
                      ,.                                              t'   "




                                                  Intent

The Subject admitted she copied material from the source documents into Proposal 1. In her
initial response to the allegation, the Subject claimed she had written a lengthier, 25-page draft
that had included references and citations to her sources and that these references were deleted in
editing Proposal 1 to the IS-page limit: We reviewed the Subject's 25-page draft and found that
while all of the four source documents were mentioned in the proposal references or within the
text itself, non~ of th~ verbatim text taken from these sources was appropriately cited. Thus,
even in its original draft'form, Proposal 1 contained plagiarized text. The Subject aggravated the
plagiarism by removing thI~e of the four references in the editing process. Consequently, the
plagiarism was carried through to the final, submitted version of Proposal 1. Although the
Subject practices within the academic ,?ommunity -and, accordingly, should know its standards,
the University found her inexperience       at
                                             grant writing was a factor in her state of mind, and,
therefore, concluded-her actions represent reckless behavior. We agree with the University's

    23 45 C.F.R. §689.2(c).                                                                            .
    24 While we considered the Act to be plagiarism in Proposals 1, 4, and 5, we note that in its report the
University considered the Act to be plagiarism in Proposal 1, with a pattern exhibited in Proposals 4 and 5.
    25 NSF Grant Proposal Guide, Chapter I, Section D.3.                                    •

                                                     6, 

CONFIDENTIAL                                                                               CONFIDENTIAL



assessment and conclude the Subject aCted recklessly when she copied text into her dr~ft
proposal without appropriate attribution, and when she further condensed the text and removed
almost all ofthe already-ina~equate references to the original authors.

                                         Significant Departure

Based on the evidence, the Subject's responses, and the University's investigation, we conclude,
by a preponderance of evidence standard, the Subject recklessly copied unattributed text into
Proposal 1 without appropriately distinguishing this text from her own work. .In doing so, the
Subject significantly departed from the accepted practice of her research cominunity, as
determined by the University'S investigation and NSF. A major scientific publisher in the
Subject's ;field "considers plagiarism in any form, at any level, to be unacceptable and a serious
breach of professional conduct. ,,26

Accordingly, we conclude that the Subject plagiarized and, hence, committed research
misconduct.' .

                                  OIG's Recommended Disposition
                                                     ,"


In deciding what actions are appropriate' when making a finding of re~earch misco'nduct, NSF
must consider several factors. These factors include how serious the misconduct was; degree of
intent; whether it was an isolated event or part of a pattern; its impact on the research record; and
other relevant circumstances. 27

                                               Seriousne~s . ,;


The University concluded the preponderance of evidence supports the conclusion that the
Subject acted recklessly when she plagiarized material into Proposal 1. Plagiarism violates
research integrity and is' a significant departure from accepted practices in .the research
community. We conclude the amount of plagiarized text is sufficiently serious to warrant a
finding of research misconduct.



                                            Degree ofIntent

As we noted above, the University concluded the Subject acted recklessly, which is a culpable
level of intent. The Subject received a significant amount of her education in a foreign country, 28
but nonetheless has many years of experience at U.S. research institutions?9 Therefore it is
reasonable to conclude she should have been aware of the requirement to cite and distinguish

    26 See the SPIE Publications Ethics Guidelines entitled "SPIE Guidelines for Professional Conduct." The
Subject has a paper entitled [redacted] published in the Proceedings of SPIE.
    27
       45 C.F.R. §689.3(b).
    28 [redacted].
    29 [redacted].
CONFIDENTIAL                                                                      CONFIDENTIAL



others' work when using it verbatim. In its report, the University concluded the Subject
plagiarized because of her inexperience and lack of training in sc~entific writing and citation
practices. We agree that lack of formal training is a mitigating, but not exculpatory, factor.
Therefore, we consider the Subject's actions to be distinctly reckless. '

                                             Pattern

During our'iiIquiry, the Subject told us there was no unattributed copied text in any of her other
NSF proposals. We determined,that there was also unattributed copied text contained in two of
the Subject's previous NSF proposals. Therefore, we conclude that the three proposals present
distinct evidence of a pattern of plagiarism..
                ..
                                Impact on the Research Record

The effect on the research record as a result of the Subjecfs actions was minimal as the primary
proposal containing plagiarized text that was the focus of this investigation was part of a
confidential proposal that was declined funding. One of the Subjecfs two other proposals
containing unattributed tex.! was declined, and while the second was awarded, the copied text
was in the background section of the proposaL The University also believed the Subjecfs
"reckless
   ,
          actions
            .,
                  had a limited impact nn the research record. ,,30          I



                                 Subject's Response to Report.

We sent our draft Report of Investigation to the Subject advising her of her right to provide
comments or rebuttal to it (Tab 15). The Subject emailed us stating she would not rebut the
report (Tab 16). The Subject agreed that she did not properiy'cite her sources, even in the 25­
page draft proposal. The Subject said the "improper citations were unintentional and without
malice," and she was "seeking courses to help [her] with proper citation practices.,,31 The
Subject's response did not change our recommendations.




                                      Recommendations

We recommend NSF take the following actions as a final disposition in this case to protect the
interests ofthe:Federal
                ,j'" "
                        Government:                        "




   30   Tab 11, p. 4.
   31   Tab 16.                                          .
                                               8

CONFIDENTIAL 	                                                                     CO:-.JFID E:-.JTL,\L



        (1) 	Issue a letter of reprimand informing the Subject that NSF has made a finding of
             research misconduct against her;32   .

        (2) 	Require the Subject to take a course on responsible research practices with emphasis
             on proper citation and attribution practices before submitting additional proposals to
             NSF·,33      .

        (3) 	For the next 2 years, require the Subject t6 provide a certification with every
             submission to NSF that the submitted work is either entirely her own writing or is
             properly cited;34

        (4) 	For the next 2 years, require the Subject to ensure her employer submits assurances
             that the submitted work is either entirely the Subject's own writing or is properly
             cited. 35

The proof of course completion, certifications, and assurances should be sent to the Assistant
Inspector General for Investigations (AlGI) for retention in OIG's confidential file on this
matter.




   32 This is a Group I action (45 C.F.R. § 689.3(a)(l)(i».
   33 This is similar to a Group I Action (45 C.F.R. § 689.3(a)(l».
   34 This is similar to a Group I action (45 C.F.R. § 689.3(a)(l».
   35 This is similar to a Group I action (45 C.F.R. § 689.3(a)(l».



                                                        9
